OFFICE OF INSPECTOR GENERAL
for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION-
FUNDED PROGRAMS IN EL
SALVADOR

AUDIT REPORT NO. M-000-11-005-P
September 30, 2011




WASHINGTON, DC
Office of Inspector General
for the Millennium Challenge Corporation



September 30, 2011

Mr. Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Audit of the Millennium
Challenge Corporation-Funded Programs in El Salvador. In finalizing the report, we considered
your written comments on our draft report and included those comments in their entirety in
Appendix II of this report.

The report contains four recommendations to strengthen the Millennium Challenge
Corporation’s (MCC) process for managing El Salvador’s compact program. OIG agrees with
MCC’s management decisions for recommendations 1, 2, 3, and 4. Final action will occur when
MCC provides additional documentation showing that the recommendations have been
implemented.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,

/s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

          Feasibility Study Was Not
          Completed Before Compact Signing ................................................................................ 4

          Written Contingency Plan
          Was Not Developed for
          Highway Section 7 ........................................................................................................... 4

          Certain Indicators Were Not Precise
          Or the Results Were Questionable .................................................................................. 5

Evaluation of Management Comments.................................................................................... 8

Appendix I – Scope and Methodology ................................................................................... 10

Appendix II – Management Comments .................................................................................. 12

Appendix III – Map of El Salvador’s Northern Zone .............................................................. 17




Abbreviations

The following abbreviations appear in this report:

FOMILENIO            Fondo del Milenio
MCC                  Millennium Challenge Corporation
OIG                  Office of Inspector General
SUMMARY OF RESULTS
On November 29, 2006, the Millennium Challenge Corporation (MCC) signed a $460.9 million
compact with the Government of El Salvador. The overall goal of the compact is to advance
economic growth and reduce poverty in the Northern Zone of El Salvador.1 To achieve this
goal, the parties selected three projects: (1) Connectivity (roads), (2) Productive Development
(activities to transition farmers and enterprises to high-profit activities, investment support, and
financial services), and (3) Human Development (education, water and sanitation, rural
electricity, and community infrastructure). Fondo del Milenio (FOMILENIO) is the accountable
entity2 for the compact. The compact entered into force3 on September 20, 2007, and will end
on September 20, 2012. As of March 31, 2011, FOMILENIO had disbursed $225 million of the
compact.

The Connectivity Project was intended to physically integrate the Northern Zone with the rest of
the country and within the region, encourage new economic opportunities for rural households,
lower transportation costs, and decrease travel times to markets through the completion of the
Northern Transnational Highway and the Network of Connecting Roads project activities. The
budget for the Connectivity Project was $233.6 million, with $140 million for the Northern
Transnational Highway and $93.6 million for the Network of Connecting Roads project activity.
However, funding for the Network of Connecting Roads was subsequently reallocated to the
Northern Transnational Highway.4 Funds from other compact project activities were also
reallocated to the Northern Transnational Highway, increasing its funding to $246.1 million. 5 As
of March 31, 2011, FOMILENIO had disbursed $118.9 million for the Northern Transnational
Highway.

The Production and Business Services Project activity is one of three project activities under the
Productive Development Project. At $57 million, the Production and Business Services Project
activity aims to provide, among other things, technical assistance to poor farmers to help them
shift to high-value agricultural products. As of March 31, 2011, FOMILENIO had disbursed
$31.4 million for the Production and Business Services Project activity.

The audit objectives were to determine whether (1) the MCC-funded Connectivity Project in
El Salvador is achieving its project activity goal of integrating the Northern Zone with national
and regional highway systems and the Honduras and Guatemala borders, and (2) the MCC-
funded Production and Business Services Project activity in El Salvador is achieving its goal of
providing technical assistance and training to farmers to transition them to high-profit activities in
the Northern Zone.

1
  Appendix III presents a map of El Salvador’s Northern Zone.
2
  An accountable entity is the legal entity designated by the host government to implement the compact
during the compact term.
3
  Entry into force is the date that all conditions precedent have been completed by the compact country’s
government and compact implementation begins.
4
  In March 2008, the Network of Connecting Roads’ original budget was reduced by $7.1 million to $86.5
million. The $7.1 million was reallocated to the Northern Transnational Highway project activity. In March
2009, the remaining $86.5 million from the Network of Connecting Roads was also reallocated to the
Northern Transnational Highway.
5
  By March 2011, the budget for the Northern Transnational Highway had increased to $255.3 million
because of additional reallocations of project activities.



                                                                                                        1
The Office of Inspector General (OIG) found that the MCC-funded Connectivity Project in El
Salvador will not achieve its project activity goals of integrating the Northern Zone with the
national and regional highway systems and the Honduras and Guatemala borders because the
funding provided by the compact was insufficient to fully implement the Connectivity Project.
The original intent of the Connectivity Project was to physically integrate El Salvador’s Northern
Zone with the rest of the country and within the region to reduce travel cost and time. However,
the feasibility study for the Connectivity Project was not completed until after compact signing.
The feasibility study found that $911 million would be needed to complete the project, which
exceeded the original Connectivity Project budget by $677.4 million. Consequently, sufficient
funds were not available to construct the Connectivity Project. Subsequently, MCC and the
Government of El Salvador agreed not to fund the 240 kilometers of Network of Connecting
Roads and reallocated its $86.5 million in funding to the Northern Transnational Highway. As a
result, the Network of Connecting Roads will no longer benefit 176,318 Salvadorians under the
compact. Also, according to MCC and FOMILENIO officials, the sections of the Northern
Transnational Highway leading to the borders of Honduras and Guatemala will not be
constructed because suitable border control measures were not in place for these new border
crossings (see page 4).

OIG also found that the Production and Business Services Project activity provided technical
assistance and training to farmers in the agricultural value chains.6 However, OIG was unable
to determine if the training would provide farmers sufficient skills and knowledge to transition
farmers to high-profit activities. Also, OIG could not confirm the data reported in the Monitoring
and Evaluation Plan results for two indicators and has concerns about the data’s reliability. For
instance, in March 2011 FOMILENIO reported that 12,465 farmers were trained, exceeding its
target of 9,135 farmers trained in year 4 of the compact. However, an OIG reconciliation found
that only 10,148 farmers were trained (see page 5).

In addition, an indicator in the Monitoring and Evaluation Plan measures the “Number of
beneficiaries of technical assistance and training,” which counts individuals’ participation in
technical assistance and training. However, the Monitoring and Evaluation Plan did not
establish the amount of training or technical assistance needed to provide farmers with new
skills. Therefore, there is a risk that a farmer would not attend enough training sessions to
obtain sufficient skills and knowledge to successfully transition to high-profit activities. OIG
believes that the amount of training should be established before a farmer is considered a
beneficiary (see page 5).

The audit identified the following concerns detailed in the report:

      A feasibility study for the Connectivity Project was not completed before compact signing.
      The study would have provided better cost information to base decisions about the budget
      for the Connectivity Project (page 4).

      A written contingency plan was not developed for Section 7 of the Northern Transnational
      Highway, which is at risk of not being completed by compact end (page 4).

      Certain indicators in the Monitoring and Evaluation plan required revision or the results were
      questionable (page 5).
6
    Agricultural value chains include horticulture and dairy farmers.



                                                                                                  2
To address these concerns, this report recommends that the Millennium Challenge Corporation:

1. Require FOMILENIO to develop a written contingency plan for Section 7 of the Northern
   Transnational Highway to ensure road completion (page 5).

2. In conjunction with FOMILENIO, revise and document the revision of certain indicators in the
   Monitoring and Evaluation plan (page 7).

3. In conjunction with FOMILENIO, document the verification of reported data used for the
   following indicators:

       Number of farmers trained
       Number of beneficiaries that have applied improved techniques (page 7)

4. In conjunction with FOMILENIO, finalize and implement the Productive Development
   Project–specific Monitoring and Evaluation manual (page 7).

Detailed findings appear in the following section. Appendix I contains a discussion of the audit’s
scope and methodology. Appendix II presents MCC’s comments. MCC agreed with
Recommendations 1, 2, 3, and 4.             Management decisions have been reached on
Recommendations 1, 2, 3, and 4, and final action will occur when MCC provides additional
documentation showing that the recommendations have been implemented.




                                                                                                3
AUDIT FINDINGS
Feasibility Study Was
Not Completed Before
Compact Signing
MCC’s compact, signed in November 2006, required the Government of El Salvador to conduct,
at its own expense, a feasibility study7 to the satisfaction of MCC. An Investment Memorandum
signed prior to the compact in August 2006 stated that the feasibility study, including final
economic and environmental analyses, was to be completed by September 2007. However,
when the feasibility study was completed in February 2008, it identified higher than expected
cost estimates to complete the Connectivity Project ($911 million versus $233.6 million). This
caused MCC and the Government of El Salvador to no longer fund the Network of Connecting
Roads; its funding, $86.5 million, was then reallocated to the Northern Transnational Highway.
As a result, 176,318 Salvadorans would not benefit from the Network of Connecting Roads. If
MCC had required a completed feasibility study before compact signing, it would have had
better cost information on which to base decisions about the budget for the Connectivity Project.

This audit is not recommending that MCC revise its policy to require that a feasibility study be
completed before compact signing, because a similar recommendation was made in an audit
report on MCC’s funding of activities in Tanzania.8 In its memorandum to OIG regarding the
recommendation, dated May 20, 2011, MCC agreed that prior to compact signing, it would
ensure that cost estimates will be in sufficient detail and will identify the studies, analyses, or
assessments required to be completed in each country.

Written Contingency Plan
Was Not Developed for
Highway Section 7
FOMILENIO has not established a written contingency plan for Section 7 of the Northern
Transnational Highway. A written contingency plan is necessary given the risk that insufficient
time may remain under the compact for the highway to be completed before the compact and
MCC funding end. Specifically, construction of Section 7 of the Northern Transnational Highway
began in March 2011, and the contract is to be completed in July 2012, 2 months before the
compact ends in September 2012. Delays have occurred on the other sections of the Northern
Transnational Highway for a number of reasons, including delays in the removal of utility poles,
difficulties in resettlement along the right-of-way, design deficiencies of the retaining walls, and
excessive amounts of rain. Therefore, it is reasonable to expect that delays could occur on this
section as well, and if so, the road may not be completed when the compact ends.



7
  A feasibility study is a preliminary study undertaken to assess whether a planned project is likely to be
practical and successful, and to estimate its cost. It is a tool for planning and managing project
investments to avoid unfounded spending of effort, time, and funds.
8
 Audit of the Millennium Challenge Corporation’s Funding of Activities in Tanzania (M-000-11-003-P),
March 30, 2011.



                                                                                                         4
MCC’s guidelines for the program closure of compacts states that no work may be performed
after the compact end date, unless it is related to program closure. If any work is to be
performed after the compact end date, it must be paid for by alternative sources of funding.

MCC does not have a policy or procedure to require Millennium Challenge Accounts to provide
it with a written contingency plan for project activities that are at risk for not being completed by
the end of a compact. FOMILENIO management believes that Section 7 of the Northern
Transnational Highway will be completed by July 2012, and is using lessons learned from the
other sections to prevent delays. However, if Section 7 of the Northern Transnational Highway
is not completed before the compact ends, 43,346 Salvadorans will be affected and up to $14
million of MCC funding will have been contributed to an unfinished product. Therefore, this
audit makes the following recommendation:

      Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
      President for the Department of Compact Operations require FOMILENIO to develop a
      written contingency plan for Section 7 of the Northern Transnational Highway to ensure
      road completion.

Certain Indicators Were
Not Precise or the Results
Were Questionable
MCC’s Policy for Monitoring and Evaluation of Compacts and Threshold Programs requires
definitions of indicators to be operationally precise and clear about what is being measured and
how results are interpreted. In addition, it states that,

          Data should reflect stable and consistent data collection processes and analysis
          methods over time. Project managers should be confident that progress toward
          performance targets reflects real changes rather than variations in data collection
          methods. Reliability can be affected by questionable validity as well as by
          changes in data collection processes.9

However, definitions for three of six indicators reviewed by OIG for the Production and Business
Services Project activity were not precise, and reported results for two indicators were
questionable. Specifically, the audit team noted the following:

          The definition for the “Number of beneficiaries of technical assistance and training”
          indicator includes the number of farmers who receive at least one type of assistance
          from the Production and Business Services Project activity. However, the Monitoring
          and Evaluation Plan did not establish the amount of training or technical assistance
          needed to provide farmers with new skills. According to a FOMILENIO official, if farmers
          attend one training session or receive 1 day of technical assistance, they are considered
          beneficiaries. However, OIG believes that the amount of training should be established
          before a farmer is considered a beneficiary, because it is unlikely that 1 day of training
          could provide the farmer sufficient skills and knowledge to transition to high-value
          agricultural productions.


9
    MCC, Policy for Monitoring and Evaluation of Compacts and Threshold Programs, May 12, 2009.



                                                                                                   5
        The definition for the “Number of beneficiaries that have applied improved techniques”
        includes the total number of farmers or rural entrepreneurs who are applying new
        production or managerial techniques introduced by the project, such as input use,
        production techniques, irrigation, post-harvest treatment, and farm management
        techniques. However, the Monitoring and Evaluation Plan does not identify the minimum
        amount of techniques farmers must improve.

        The definition for the “Investment in productive chains by selected beneficiaries”
        indicator states that investments represent the amount of MCC funding and counterpart
        contributions10 spent on inputs, equipment, and infrastructure, as laid out in business
        plans for all Productive Development projects.11 However, according to a FOMILENIO
        official, the amount of contributions that a project beneficiary provides is not determined
        by business plans. Instead, it is determined by a formula that considers land, labor,
        inputs, technical assistance, local infrastructure, and equipment for each farmer.

        OIG questioned the reliability of the reported results for the “Number of farmers trained”
        indicator. FOMILENIO reported to MCC that 12,465 beneficiaries were trained in the
        agricultural value chains, exceeding its 9,135 farmers trained target in year 4 of the
        compact. However, OIG found that the number of beneficiaries totaled 10,148 (19
        percent difference). Furthermore, OIG found that the data field containing the
        beneficiaries’ phase of implementation was not always completed.

        OIG questioned the reliability of the reported results for the “Number of beneficiaries that
        have applied improved techniques” indicator. FOMILENIO reported to MCC that 5,328
        of 5,800 beneficiaries applied improved techniques in year 4 of the compact. However,
        OIG found that 4,084 beneficiaries applied improved techniques (23 percent difference).
        Furthermore, OIG found that the “adopted practices” fields for 714 beneficiaries were
        blank.

The definitions for three of four indicators reviewed by OIG for the Connectivity Project also
needed revision. Specifically, the audit team noted the following:

     The definition for the “Increase in income of households near the Northern Transnational
     Highway” and “Land prices along the Northern Transnational Highway” indicators were not
     revised in the Monitoring and Evaluation Plan after MCC changed its beneficiary definition
     for road projects. Originally, each indicator measured changes in income and land prices
     within 2 kilometers of the Northern Transnational Highway. MCC subsequently changed its
     beneficiary definition to count beneficiaries within 5 kilometers of the highway. However, the
     plan was not revised to reflect this change.

     The definition for the “Travel time from Guatemala to Honduras through the Northern Zone”
     indicator does not account for project changes. After MCC and the Government of El
     Salvador decided to end funding for sections of the Northern Transnational Highway
     connecting the borders, the indicator definition was not modified accordingly.


10
   Counterpart contributions refer to cash, goods, or services that beneficiaries contribute to Productive
Development projects, such as to their farms.
11
   The Production and Business Services Project activity is one of three project activities under the
Productive Development Project.



                                                                                                        6
With regard to the Production and Business Services Project activity, MCC’s Monitoring and
Evaluation Plan did not provide enough detail for the indicators. Rather than revising this plan,
MCC and FOMILENIO decided to create a specific Monitoring and Evaluation manual, which
would provide more detail about the Productive Development Project indicators. However, the
manual had not been completed at the time of our fieldwork.

With regard to the Connectivity Project, revisions were not made to the Monitoring and
Evaluation Plan for two reasons. First, an MCC economist was not available at the time to
assist with revising the targets for the increase in income and land prices indicators. Second,
MCC overlooked the revision of the definition of the travel time indicator during the most recent
Monitoring and Evaluation Plan revision.

As a result, MCC and FOMILENIO management may not have the information for the
aforementioned indicators to measure the results of the project. Therefore, this audit makes the
following recommendations:

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President for the Department of Policy and Evaluation, in conjunction with FOMILENIO,
   revise and document the revision of the following indicators:
           Number of beneficiaries of technical assistance and training
           Number of beneficiaries that have applied improved techniques
           Investment in productive chains by selected beneficiaries
           Increase in income of households near the Northern Transnational Highway
           Land prices along the Northern Transnational Highway
           Travel time from Guatemala to Honduras through the Northern Zone

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President for the Department of Policy and Evaluation, in conjunction with FOMILENIO,
   document the verification of reported data used for the following indicators:
          Number of farmers trained
          Number of beneficiaries that have applied improved techniques

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President for the Department of Policy and Evaluation, in conjunction with FOMILENIO,
   finalize and implement the Productive Development Project–specific Monitoring and
   Evaluation manual.




                                                                                               7
EVALUATION OF MANAGEMENT
COMMENTS
MCC’s written comments on the draft report are included in their entirety in Appendix II of this
report. In its comments, MCC agreed with the four recommendations.

MCC agreed with Recommendation 1, to develop a written contingency plan for Section 7 of the
Northern Transnational Highway to ensure road completion. In accordance with MCC’s
Program Closure Guidelines, Fondo del Milenio (FOMILENIO) is currently finalizing its Program
Closure Plan, which will identify completion risks for Section 7 of the Northern Transnational
Highway and any other projects, activities, and subactivities deemed to be significant. MCC will
ensure that the final version of FOMILENIO’s Program Closure Plan will be approved no later
than December 31, 2011. OIG agrees with MCC’s management decision. However, final action
will not take place until MCC provides OIG with the Program Closure Plan.

MCC agreed with Recommendation 2, in conjunction with FOMILENIO, to revise and document
the revisions of three indicators within the Production and Business Services Project activity and
three indicators within the Connectivity Project. MCC agreed to work with FOMILENIO to revise
and/or clarify the definitions of the indicators in the Monitoring and Evaluation Plan, taking into
account OIG’s comments and observations. MCC considers that acceptance of the revised
Monitoring and Evaluation Plan will constitute final management decision on this
recommendation and will take final action by March 2012. OIG agrees with MCC’s
management decision. However, final action will not take place until MCC provides OIG with
the Monitoring and Evaluation Plan.

MCC agreed with Recommendation 3, in conjunction with FOMILENIO, to document the
verification of reported data used for the following two indicators: (a) number of farmers trained
and (b) number of beneficiaries that have applied improved techniques. MCC stated in its
response that FOMILENIO had provided OIG with incorrect information to support the two
indicators, but that MCC had provided OIG with the correct information on July 27, 2011. MCC
asserted that this new information had been verified and considered this its final management
decision. It also considered that it had already taken final action on the recommendation. OIG
agrees with MCC’s management decision to verify the reported data. However, MCC did not
provide documentation for how it had verified the data. Consequently, OIG believes that final
action has not yet occurred on Recommendation 3.

MCC agreed with Recommendation 4, in conjunction with FOMILENIO, to finalize and
implement the Productive Development Project-specific Monitoring and Evaluation manual.
MCC agreed with the recommendation and, in conjunction with FOMILENIO, will finalize the
manual by the end of March 2012. MCC considers this its final management decision on the
recommendation. OIG agrees with MCC’s management decision. However, final action will not
take place until MCC provides OIG with the Productive Development Project-specific Monitoring
and Evaluation manual.

MCC provided additional comments to this report in Tab A of its management comments, which
OIG also evaluated.




                                                                                                 8
MCC stated that OIG’s audit objective to determine whether the MCC-funded Connectivity
Project in El Salvador is achieving its project activity goal of integrating the Northern Zone with
national and regional highway systems and the Honduras and Guatemala border is narrower
than the actual objective of the Connectivity Project as defined by the compact. The objective of
the Connectivity Project is to reduce travel cost and time within the Northern Zone, in the rest of
country, and within the region. OIG communicated its audit objective for the Connectivity
Project to MCC at the beginning of the audit and emphasized that its focus would be on the
project activity goals and not the compact objective for the Connectivity Project, because the
compact objective would not be measurable until all road projects are complete.

MCC disagreed with OIG’s conclusion that the Connectivity Project will not achieve its project
activity goals of integrating the Northern Zone with the national and regional highway systems
and the Honduras and Guatemala borders because the funding provided by the compact was
insufficient to fully implement the Connectivity Project. OIG’s conclusion was based on the
planned integration of the Northern Zone, which included the Northern Transnational Highway
and the Network of Connecting Roads.

MCC disagreed with OIG’s use of the original design option in drawing its conclusions about the
integration of the Connectivity Project with the Northern Transnational Highway. MCC further
stated that the initial border crossings for the Northern Transnational Highway were eliminated
for technical reasons, and FOMILENIO decided to change the design to connect to existing
borders. However, OIG’s conclusions focused on the MCC-funded activities at the time the
compact was signed. These included the initial border crossings and MCC’s agreement to fund
the Network of Connecting Roads, which were both subsequently eliminated from the compact.

MCC disagreed with OIG that sufficient funds were not available to construct the Connectivity
Project. MCC acknowledges that MCC funds were insufficient for all roads initially envisioned,
but the Government of El Salvador has allocated sufficient funds to complete the roads. OIG
drew its conclusions on the achievements made using MCC funding.

MCC indicated that the draft report suggests that the project will not meet its targets for
beneficiaries due to the fact that the feasibility study for the Northern Transnational Highway
was not completed prior to the compact signing. MCC further pointed out that the Government
of El Salvador has arranged financing to complete the Network of Connecting Roads. However,
at the time the compact was signed, MCC agreed to fund certain projects, such as the Network
of Connecting Roads, but MCC’s funding for this project activity was subsequently eliminated
and reallocated to the Northern Transnational Highway. OIG recognizes the importance of
government contributions toward the completion of the compact projects as being a part of
MCC’s country ownership model. However, the elimination of MCC funding from the
Connectivity Project affects MCC’s attribution to the overall project, including the number of
beneficiaries reached.




                                                                                                 9
                                                                                        APPENDIX I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit of MCC-funded programs in El Salvador in accordance
with Generally Accepted Government Auditing Standards, July 2007 Revision (GAO-07-731G).
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions in accordance with our
audit objectives. We believe that the evidence obtained provides that reasonable basis.

We audited the $255.3 million Connectivity Project because it represented more than 50 percent
of the compact budget. We also audited the $57 million Production and Business Services
Project activity because it represented 80 percent of the Productive Development Project
budget. We conducted our fieldwork from February 10 to June 13, 2011, at MCC headquarters
in Washington, DC, with a site visit to FOMILENIO in San Salvador, El Salvador, and cities in
the Northern Zone of El Salvador, from March 28 to April 15, 2011.

We examined the internal control environment by identifying and assessing the relevant
controls. This included a review of supporting documentation over project oversight for the
Connectivity Project and Production and Business Services Project activity.

We relied on computer-processed data from FOMILENIO and the implementing entity to access
whether performance targets in the Monitoring and Evaluation Plan were met for the
Connectivity Project and Production and Business Services Project activity. However, the data
were not verified. We also used a translation website to convert documents provided to us in
Spanish to English.

Methodology
To answer the audit objectives, we established audit steps to determine whether MCC and
FOMILENIO were achieving project activity goals in the Northern Zone by integrating national
and regional highway systems, to include countries bordering El Salvador, and by providing
technical assistance and training to farmers to transition to high-profit activities. Specifically, we
performed the following activities:

   Interviewed MCC, FOMILENIO, and Government of El Salvador officials implementing or
   overseeing the Connectivity Project to gain an understanding of project implementation,
   project oversight, changes to the project, monitoring, and sustainability of the project.

   Interviewed contractors constructing the Northern Transnational Highway and supervisory
   firms to gain an understanding of the quality and supervision of the roads and the
   sustainability of the project.

   Reviewed and analyzed supporting documentation for the Connectivity Project related to
   project implementation, project oversight, changes to the project, and monitoring.

   Judgmentally selected three of six sections of the Northern Transnational Highway to
   conduct site visits of the roads.


                                                                                                   10
                                                                                 APPENDIX I



Judgmentally selected one performance indicator from the Connectivity Project and
reconciled it against the Monitoring and Evaluation Plan results.

Interviewed MCC and FOMILENIO officials, and contractors implementing or overseeing the
Production and Business Services Project activity, to gain an understanding of project
implementation, project oversight, monitoring, and sustainability of the projects.

Reviewed and analyzed supporting documentation for the Production and Business
Services Project activity related to project implementation, project oversight, and monitoring.

Judgmentally selected 15 farmers from three regions within the Northern Zone with the
largest number of farmers in the Production and Business Services Project activity to visit.

Obtained beneficiary data from FOMILENIO for the Production and Business Services
Project activity and reconciled them against the Monitoring and Evaluation Plan results for
two indicators.




                                                                                            11
                                                                                    APPENDIX II



MANAGEMENT COMMENTS



Date:      September 20, 2011

To:        Alvin A. Brown
           Assistant Inspector General
           Millennium Challenge Corporation

From:      Patrick Fine /s/
           Vice President, Department of Compact Operations
           Millennium Challenge Corporation

           Sheila Herrling /s/
           Vice President, Department of Policy and Evaluation
           Millennium Challenge Corporation

Subject:   MCC Response to Report No. M-000-11-00X-P, Audit of the Millennium Challenge
           Corporation-Funded Programs in El Salvador

Dear Mr. Brown:

The Millennium Challenge Corporation appreciates the opportunity to respond to the Office of
Inspector General’s draft audit report on El Salvador. MCC’s responses to the report’s four
recommendations are given below. Attached at Tab A are additional comments, clarifications
and corrections to the summary of results and audit findings.

Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
President of the Department of Compact Operations require FOMILENIO to develop a written
contingency plan for Section 7 of the Northern Transnational Highway to ensure road
completion.

MCC Response: MCC agrees with this recommendation. Prior to the audit, MCC has already
instituted specific administrative policies and procedures that ensure proper plans are developed
and actions taken to mitigate risks related to timely project completion. Specifically, MCC
conducts quarterly portfolio reviews in which country teams review all known risks and identify
potential mitigation strategies related to compact implementation. If risks persist into the final
stages of compact implementation, MCC’s Program Closure Guidelines require that contingency
plans be prepared to avoid the kinds of potential problems cited in the draft report. The Program


                                                                                               12
                                                                                  APPENDIX II


Closure Guidelines require that Program Closure Plans include the following:

   a. A brief description of the closure strategy for the Project. If applicable, the Program
   Closure Plan for the Project should include detail at the Activity or sub-activity level.
   b. Identification of completion risks and sustainability risks for the Project/Activity,
   including how the Accountable Entity plans to address these risks, and contingency plans for
   how to respond if these risks materialize.

In accordance with MCC’s Program Closure Guidelines, FOMILENIO is currently finalizing its
Program Closure Plan. MCC will ensure that the final approved version – to be completed no
later than December 31, 2011 - includes these required components, not only for Section 7 of the
Northern Transnational Highway (NTH), but also for any other projects, activities, or sub-
activities for which completion risk is deemed to be significant. Acceptance of FOMILENIO’s
Program Closure Plan will constitute MCC’s final management decision on this
recommendation.

Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
President of the Department of Policy and Evaluation, in conjunction with FOMILENIO, revise
and document the revision of the following indicators:

   •   Number of beneficiaries of technical assistance and training
   •   Number of beneficiaries that have applied improved techniques
   •   Investment in productive chains by selected beneficiaries
   •   Increase in income of households near the Northern Transnational Highway
   •   Land prices along the Northern Transnational Highway
   •   Travel time from Guatemala to Honduras through the Northern Zone

MCC Response: MCC agrees to work with FOMILENIO to revise and/or clarify the definitions
in the M&E Plan, taking into account the OIG’s comments and observations. MCC considers
acceptance of the revised M&E Plan will constitute final management decision on this
recommendation and will take final action by March 2012.

Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
President of the Department of Policy and Evaluation, in conjunction with FOMILENIO,
document the verification of reported data used for the following indicators:

   •   Number of farmers trained
   •   Number of beneficiaries that have applied improved techniques

MCC Response:         MCC believes this recommendation has already been addressed.
FOMILENIO originally provided the OIG with incorrect information. Following this, MCC
provided corrected information to the OIG on July 27, 2011, including verified correct reporting
data including the names and information for 12,544 farmers trained (0.6% percent difference
from the previously reported figure of 12,465) and 5,319 farmers that have applied improved
techniques (0.2% difference from the previously reported figure of 5,328). MCC considers this
its final management decision, and that final action has already been taken to address this



                                                                                             13
                                                                                APPENDIX II


recommendation.



Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
President of the Department of Policy and Evaluation, in conjunction with FOMILENIO, finalize
and implement the Productive Development Project–specific Monitoring and Evaluation manual.

MCC Response: MCC agrees with the recommendation and, in conjunction with FOMILENIO,
will finalize the monitoring and evaluation manual for the Productive Development Project by
the end of March 2012. MCC considers this its final management decision on this
recommendation.

Attachment

Tab A: MCC Management Comments on OIG Audit Report No. M-000-11-00X-P




                                                                                          14
                                                                                     APPENDIX II


     Tab A: MCC Management Comments on OIG Audit Report No. M-000-11-00X-P

MCC would like to make the following clarifications and corrections to certain factual errors
and/or inconsistencies in the draft report.

Objectives of the Connectivity Project

The draft report indicates that one of the objectives of the audit was to “determine whether the
MCC-funded Connectivity Project in El Salvador is achieving its project activity goal of
integrating the Northern Zone with national and regional highway systems and the Honduras and
Guatemala borders”. This goal is not the same as the objective defined in the El Salvador
Compact. Specifically, Section 1.1(c) of the Compact defines the objective of the Connectivity
Project as follows: “Reduce travel cost and time within the Northern Zone, with the rest of
country, and within the region”. Accordingly, the framing of the question in the draft report is
narrower than the actual objective of the Connectivity Project as defined in the Compact.

Achievements of the Connectivity Project

In its Summary of Results, the OIG concludes that the Connectivity Project “will not achieve its
project activity goals of integrating the Northern Zone with the national and regional highway
systems and the Honduras and Guatemala borders because the funding provided by the compact
was insufficient to fully implement the Connectivity Project.” The conclusion is incorrect. The
Northern Transnational Highway (NTH) is already connected to the Anguiatu border crossing
with Guatemala in the Northwest via a 6 mile segment of road north of Metapán. Similarly,
upon completion of Segment 7 in July 2012, the NTH will also be connected to the border
crossing into Honduras at Amatillo. Additionally, the NTH when completed, will intersect with
the following major national highways and road networks: CA-12, CA-4, CA-3, RN-8, SAV-25,
SAM-30, SAM-7, CA-7, MOR-1, and UNI-4. This is clear evidence of both national and
regional integration.

One of the original design options considered for the NTH entailed the extension of road
segments further to the south on the westernmost end of the NTH, and further to the north on the
easternmost segment. The original option was not chosen because engineers from FOMILENIO
and MCC assessed that this design would have required the construction of bridges over rivers
flowing along border crossings, but without any existing or planned roads to connect to on the
other side of these rivers in the neighboring countries. The OIG’s focus on the original design
option led to the erroneous conclusion that final decision by FOMILENIO (to connect to existing
border crossings in the nearby vicinity of both ends of the NTH) reduced integration with
Guatemala and Honduras. It did not. Rather, using existing border crossings was a common
sense decision that saved money and led to better use of MCC funds.

The draft report also erroneously concludes that “sufficient funds were not available to construct
the Connectivity Project”. While it is true that there are insufficient MCC funds for all roads
initially envisioned, it is incorrect to imply that the planned connecting roads will not be built.
As of September 6, 2011, MCC has verified that the Government of El Salvador has allocated
sufficient funds to complete the Connectivity Project. In addition to MCC funds allocated to



                                                                                                15
                                                                                       APPENDIX II


construct the NTH (completion projected for July 2012), the Government of El Salvador has
confirmed financing totaling more than $134 million will be used to construct the Network of
Connecting Roads, and cover possible contingencies. We believe this is a positive example of
U.S. funds leveraging funding from the partner country to meet a national priority and address a
major constraint to economic growth.

The draft report suggests that the project will not meet its targets for beneficiaries due to the fact
that the feasibility study for the NTH was not completed prior to Compact signing. It is
important to point out that the Government of El Salvador’s success in arranging financing for
the Network of Connecting Roads will make it likely that the Connectivity Project as a whole
will exceed its targets for beneficiaries. Further, the audit report overlooks the success of the
Compact in ensuring that the Government of El Salvador provide a significant contribution to
further Compact objectives. MCC’s model encourages host country ownership, which is clearly
demonstrated in this case by the Government of El Salvador’s provision of counterpart funding.

Thank you for the opportunity to comment on the draft audit report. If you have questions and or
need additional information, please contact Pat McDonald, MCC’s Compliance Officer at 202-
521-7260.




                                                                                                   16
                                                                APPENDIX III




            Map of El Salvador’s Northern Zone




Guatemala
                                                     Honduras



                                     Northern Zone




                                  El Salvador




                                                                         17
U.S. Agency for International Development
           Office of Inspector General
   for the Millennium Challenge Corporation
          1401 H Street, NW, Suite 770
              Washington, DC 20005
                Tel: (202) 216-6960
               Fax: (202) 216-6984
               www.usaid.gov/oig
